IN THE SUPREME COURT OF THE UNITED STATES
No. 20-1596
Taylor Lohmeyer Law Firm, PLLC,
Petitioner,
v.
United States of America,
Respondent.
I, Lacey Strachan, counsel for the American College of Tax Counsel as
Amicus Curiae, hereby certify that, according to the word-count tool in Microsoft
Word, the Brief of the American College of Tax Counsel as Amicus Curiae in
Support of Petitioner consists of 3,401 words, including footnotes and excluding the
sections enumerated by Rule 33.1(d). The Brief therefore complies with Rule
33.1(g).

Lacey Strachan
Hochman Salkin Toscher Perez PC
9150 Wilshire Blvd., Ste. 300
Beverly Hills, CA 90212
(310) 281-3200
Strachan@taxlitigator.com

